No. 19-309

In the Supreme Court of the United States
__________
JOHN R. CARNEY, GOVERNOR OF DELAWARE,
PETITIONER
v.
JAMES R. ADAMS,
RESPONDENT
__________
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT

__________
CERTIFICATE OF SERVICE
__________
I, Steffen N. Johnson, a member of the Bar of this Court, hereby certify that
on March 16, 2020, three copies of the corrected Reply Brief for Petitioner, intended
to replace the brief filed on Friday, March 13, in the above-captioned case were
served, as required by Supreme Court Rule 29.3, on the following:
DAVID L. FINGER
Finger & Slanina, LLC
One Commerce Center
1201 N. Orange Street, 7th Floor
Wilmington, DE 19801-1186
dfinger@delawgroup.com
Counsel for Respondent
VIRGINIA A. SEITZ
Sidley Austin LLP
1501 K Street, N.W.
Washington, D.C. 20005
vseitz@sidley.com
Counsel for Amici Curiae Former Chief Justices of the Delaware Supreme Court

RODNEY A. SMOLLA
4601 Concord Pike
Wilmington, DE 19803
rasmolla@widener.edu
Counsel for Amici Curiae Professors
KIRTI DATLA
Hogan Lovells US LLP
555 Thirteenth Street, N.W.
Washington, DC 20004
kirti.datla@hoganlovells.com
Counsel for Amici Curiae State and Local Government Associations
THEODORE N. MIRVIS
Wachtell, Lipton, Rosen & Katz
51 West 52nd Street
New York, New York 10019
tnmirvis@wlrk.com
Counsel for Amici Curiae Former Governors of the State of Delaware
RICHARD A. FORSTEN
Saul Ewing Arnstein & Lehr, LLP
1201 N. Market St., Suite 2300
Wilmington, DE 19801
Richard.Forsten@Saul.com
Counsel for Amici Curiae Delaware State Bar Association
ERIC F. CITRON
Goldstein & Russell, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
ec@goldsteinrussell.com
Counsel for Amici Curiae Professors Brian D. Feinstein and
Daniel J. Hemel

-2-

GREGORY G. GARRE
Latham & Watkins LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
gregory.garre@lw.com
Counsel for Amicus Curiae The Chamber of Commerce of the
United States of America
ROBERT L. BYER
Duane Morris LLP
600 Grant Street, Suite 5010
Pittsburgh, PA 15219
rlbyer@duanemorris.com
Counsel for Amicus Curiae Conference of Chief Justices
RICHARD W. CLARY
Cravath, Swaine & Moore LLP
Worldwide Plaza
825 Eighth Avenue
New York, NY 10019-7475
rclary@cravath.com
Counsel for Amicus Curiae Brennan Center for Justice at NYU School of Law
CAITLIN HALLIGAN
Selendy & Gay PLLC
1290 Avenue of the Americas
New York, New York 10104
challigan@selendygay.com
Counsel for Amicus Curiae Campaign Legal Center

-3-

JASON TORCHINSKY
Holtzman Vogel Josefiak
Torchinsky PLLC
45 North Hill Drive
Suite 100
Warrenton, VA 20186
Jtorchinsky@hvjt.law
Counsel for Amici Curiae Anthony Daunt and Norman Shinkle
RICHARD B. RAILE
Baker & Hostetler LLP
1050 Connecticut Ave., N.W.
Suite 1100
Washington, DC 20036
rraile@bakerlaw.com
Counsel for Amicus Curiae Republican National Committee
EUGENE VOLOKH
First Amendment Clinic
UCLA School of Law
405 Hilgard Ave.
Los Angeles, CA 90095
volokh@law.ucla.edu
Counsel for Amicus Curiae Cato Institute
KAITLIN E. LEARY
Public Citizen Litigation Group
1600 20th Street NW
Washington, DC 20009
kleary@citizen.org
Counsel for Amicus Curiae Public Citizen
JOEL EDAN FRIEDLANDER
Friedlander & Gorris, P.A.
1201 N. Market Street Suite 2200
Wilmington, DE 19801
jfriedlander@friedlandergorris.com
Counsel for Amicus Curiae Lawyers and Professors

-4-

OLIVER B. HALL
2515 Cliffbourne Pl. NW
Washington, D.C. 20009
oliverbhall@gmail.com
Counsel for Amicus Curiae Libertarian National Committee
I further certify that all parties required to be served have been served.

/s/ Steffen N. Johnson
Steffen N. Johnson

-5-

